                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: AIOOIOOOI                                                                     Page 1 of 1



                We assessed an allegation that an NSF employee 1 was abusing telework privileges and
         submitting inaccurate ITAS records, and was absent from NSF during core hours on unrelated
         business. We secured the telework agreement and the ITAS records, and interviewed the
         employee. A situational telework agreement is in place to accommodate absence from NSF one
         day a week for a course taught at a local university;2 that absence is reflected in ITAS records.
         Approval to teach the course was sought by the employee beforehand. The employee's direct
         supervisor3 stated that the employee's work productivity is exemplary. We found no evidence
         to support the allegation.

                   Accordingly, this case is closed.




         I Redacted.
         2 Redacted.
         3 Redacted.




NSF OIG Form 2 (11102)
